OIG Investigative Reports, Westfield Man Pleads Guilty to Filing False Tax Returns and Failing to File Tax Returns
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
The United States Attorneys Office
District of Massachusetts
For Immediate Release
Wednesday, January 14, 2009
www.usdoj.gov/usao/ma
Contact:Christina Diiorio-Sterling
Phone: (617)7483356
EMail: usama.media@usdoj.gov
Westfield Man Pleads Guilty to Filing False Tax Returns and Failing to File Tax Returns
BOSTON, MA  A Westfield man was convicted today in federal court of filing false income tax returns and failing to file income tax returns.
United States Attorney Michael J. Sullivan, Joann Zuniga, Acting Special Agent in Charge of the Internal Revenue Service, Criminal Investigation 
Boston Field Office, and Brian Hickey, Regional Inspector General for Investigations, U.S. Department of Education, Office of Inspector General, Region I and
II, announced today that MARK LAVOIE, age 54, of 985 Granville Road, Westfield, Massachusetts, pled guilty before U.S. District Judge Michael A. Ponsor to
Filing False Income Tax Returns and Failing to File Income Tax Returns.
At today's plea hearing, the prosecutor told the Court that had the case proceeded to trial the Government’s evidence would have proven that the
defendant under-reported his income on his 2001 and 2002 income tax returns by over $132,000. LAVOIE also failed to file income tax returns for 2004,
2005, and 2006 when he had approximate gross incomes of $164,250, $186,595, and $424,121, respectively.
Judge Ponsor scheduled sentencing for April 8, 2009. LAVOIE faces up to nine years imprisonment, to be followed by five years of supervised release, and a
$275,000 fine on all of the charges.
The case was investigated by the Internal Revenue Service, Criminal Investigation  Boston Field Office and U.S. Department of Education, Office of
Inspector General. It is being prosecuted by Assistant U.S. Attorney Alex J. Grant of Sullivans Springfield Branch Unit.
Top
Printable view
Share this page
Last Modified: 02/06/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov